Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




BENEFICIARY AWARENESS OF HCFA

          PUBLICATIONS





                        @ SERVICF$
                  ~-+                qy
              +

         ~v
                                          JUNE   GIBBS BROWN
         :                                Inspector   General
         s
          ‘3 @
           %+=+                                    JUNE 1995
             %’d~~
             >                                   OEI-04-93-00141
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing setices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

Atlanta Region                                       Headquarter

Betty Apt, Team Leader                               Tom Noplock, ProgramSpecialist

James Green, Contractor                              Brian Ritchie, Technical Support

Peggy Daniel, ProgramAnalyst                         Jennifer Antico, ProgramSpecialist

Jackie Andrews, ProgramAnalyst                       Barbara Tedesco, Statistician

Joe Townsel, ProgramAnalyst

Tammy Bonney, ProgramAna@st


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-5022.
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL




BENEFICIARY AWARENESS OF HCFA

          PUBLICATIONS





                            St RVICE$
                       #J
                  ~+                    0$,
              +

         Z*                                   JUNE   GIBBS BROWN

         4

         ~                                    Inspector   General

         s

         %
 @
          %“                                           Jum 1995
            +%’d~~
             >                                       OEI-04-93-O0141
              EXECUTIVE                         SUMMARY


PURPOSE

To determine Medicare beneficiary awareness of booklets the Health Care Financing
Administration publishes to assist beneficiaries with health care decisions.

BACKGROUND

The Health Care Financing Administration (HCFA) publishes various booklets
designed to help Medicare beneficiaries make informed health care decisions. The
booklets are available from several sources, such as Social Security offices and senior
citizen organizations. However, the department has little information on the extent
that beneficiaries know the booklets are available.

As part of our 1994 survey to determine beneficiary satisfaction with Medicare, we
asked beneficiaries about their awareness of the Medicare Handbook and seven other
HCFA publications. These eight publications included the handbook and two booklets
on selecting Medigap insurance and nursing homes we reported on in 1993.

FINDINGS

Most beneficiaries were aware of the Medicare Handbook

Three-fourths of the beneficiaries surveyed in 1993 and 1994 said they knew about the
Medicare Handbook. Most of them thought it was helpful, easy to read and
understand, and contained adequate information.

Awareness of the Medigap guide increased since 1993

The percent of beneficiaries who were aware of HCFA’S Guide to Health Insurance for
People with Medicare increased from 13 percent in 1993 to 24 percent in 1994.

Awareness of the nunsing home guide was about the same in 1993 and 1994

The percent of beneficiaries who were aware of HCFA’S Guide to Choosing a Numing
Home decreased slightly from nine percent in 1993 to eight percent in 1994.

Few beneficiaries were aware of other HCFA publications

The percent of beneficiaries aware of five other HCFA publications ranged from 4 to
14 percent.

   �	
        Fourteen percent of the Medicare beneficiaries who responded to our survey
        were aware of HCFA’S Medicare and Other Health Benefits.


                                            i
  �
      Nine percent of the Medicare beneficiaries who responded to our survey were
      aware of HCJ?A’S Medicare Coverage for Second Su~ical Opinions.

  �
      Nine percent of the Medicare beneficiaries who responded to our survey were
      aware of HCFA’S Medicare Hospice Benefits.

  �
      Six percent of the Medicare beneficiaries who responded to our survey were
      aware of HCFA’S Medicare and Coordinated Care Plans.

  �
      Four percent of the Medicare beneficiaries who responded to our survey were
      aware- of HCFA’S Medicare Savings for Qualified Benej7ciaries.

We realize that awareness of these publications may depend on a beneficiary’s needs.
Further, these publications are referenced in HCFA’S Medicare Handbook which most
beneficiaries are aware of.

RECOMMENDATION

We recommend that HCFA continue their current efforts, as well as experiment with
new methods, to develop a more effective strate~ to increase beneficiary awareness of
their publications.

AGENCY COMMENTS

The HCFA Administrator commented on our draft report, and concurred with our
findings. He reported that HCFA has several initiatives underway designed to educate
Medicare beneficiaries and providers about Medicare’s home health coverage. For
example, HCFA is developing a new pamphlet to be distributed to organizations and
health care providers who serve beneficiaries. The Administrator reported HCFA is
also working to improve the readability and distribution of existing publications.




                                          ..
                                          11
                         TABLE                   OF CONTENTS


                                                                                                                    PAGE


EXECUTIVE           SUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

 �    Most Beneficiaries Were Awareof                   the A4edicareHandbook                 . . . . . . . . . . . . . . . 5


 �    Awareness of HCFA’S Medigap Guide Increased Since 1993 . . . . . . . . . . . . . . . 5


 �	   Awareness of HCFA’S Nursing Home Guide Was About the Same

      in 1993 and 1994 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


 �    Few Beneficiaries Were Aware of Other HCFAPublications                                    . . . . . . . . . . . . . . 6



RECOMMENDATION                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


AGENCY COMMENTS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES


      Responsesto        1993 Survey of Medicare Beneficiaries . . . . . . . . . . . . . . . . . . . A-1


      Responsesto        1994 Sumeyof Medicare Beneficiaries . . . . . . . . . . . . . . . . . . . B-1


      HCFA Comments              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

                             INTRODUCTION


PURPOSE

To determine Medicare beneficiary awareness of booklets the Health Care Financing
Administration publishes to assist beneficiaries with health care decisions.

BACKGROUND

Medicare Program

Medicare is a Federal health insurance program for individuals age 65and older and
forcertain categories ofdisabled people. Authorizedin 1965 bytitle XVIII of the
Social Security Act, Medicare paid benefitsin 1993 totalling $143 billionth
approximately 36 million beneficiaries .1 The Health Care Financing Administration
(HCFA) within the Department of Health and Human Services has responsibility for
the Medicare program.

HCFA I%blications

HCFA publishes a handbook for beneficiaries that explains how the Medicare
program works and what the benefits are. HCFA also publishes various booklets
designed to help beneficiaries make informed health care decisions. The booklets
provide (1) guidance on Medicare coverage for specific services, such as hospice and
second surgical opinions, and (2) advice on criteria beneficiaries should consider in
selecting services, such as nursing home care and supplemental health insurance.

The handbook is mailed to new beneficiaries when they enroll, and to all beneficiaries
when major changes are made to the Medicare program. The booklets are available
upon request from several sources, such as Social Security offices, insurance offices
that process Medicare claims (called carriers), and senior citizen organizations.
However, the department has little information on the extent that beneficiaries know
the booklets are available.

Prevwus   survey
In 1993, the Office of Inspector General conducted a survey of Medicare beneficiaries
to determine their awareness of the handbook and two booklets published by HCFA.
The two booklets provided guidance to beneficiaries and their families to help them
select nursing homes and health insurance to supplement Medicare coverage
(Medigap insurance).



   lHealth Care Financing Administration, United States Department of Health and Human Services.
HCFA Statistics, July 1994


                                               1
We found that three-fourths of the beneficiaries were aware of the handbookz, but
few beneficiaries (less than 15 percent) knew about the two booklets3. However,
most beneficiaries who had used the handbook and booklets found them useful.

METHODS

1994     Swvqv
In July 1994, we mailed a questionnaire to 1279 randomly selected Medicare
beneficiaries for whom Part B claims had been filed in Calendar Year 1993. Based on
previous experience with similar beneficiary sumeys, the sample size was calculated to
produce an estimate within 3.5 percent of the true value at the 95 percent confidence
level. We used standard equations for estimating sample size with a binary response
variable.

k part of our 1994 survey to determine beneficiary satisfaction with Medicare,4 we
asked beneficiaries about their awareness of eight HCFA publications. The eight
publications included the Medicare Handbook, which all beneficiaries receive, and
seven other publications that HCFA requested we include. The eight booklets are
described below.

   �
            HCFA’S Medicare Handbook explains the Medicare program and benefits.

   �	
            HCFA’S Guide [o Health Insurance for People with Medicare Coverage provides
            information on (1) Medicare coverage, (2) types of Medigap policies, and (3)
            tips for purchasing Medigap insurance.

   �	
            HCFA’S Guide to Choosing a Nursing Home contains information on (1) factors
            to consider in selecting a nursing home, and (2) Medicare and Medicaid
            coverage of nursing home care.

   �	
            HCFA’S Medicare and Other Health Benej7ts explains how Medicare coordinates
            with other insurance that beneficiaries may have, such as Medigap, employer
            health plans, and Workman’s Compensation.

   �	
            HCFA’S Medicare Coverage for Second Wgical Opinions provides information
            on (1) when beneficiaries should get second surgical opinions, (2) how to find


       20 ffice of Inspector General, United States Department of Health and Human Services. Medicare
Beneficial     Satisfaction: 1993. 0EI-04-92-O0480, August 1993

            30 ffice of Inspector General, United States Department of Health and Human Services. Use
of Nursing Home and Medigap Guides. OEI-04-92-00481, May 1994

        40 ffice of Inspector General, United States Department of Health and Human Serviees. Medicare
BenejkiaU Satisfaction: 1994. 0EI-04-92-O0480, December 1994


                                                     2
       physicians togivesecond   surgical opinions, (3)and    Medicare payments for
       second surgical opinions.

  �	
       HCFA’S Medicare Hospice Benefits explains (1) hospice services, (2) eligibility
       requirements,   and (3) Medicare   payments   for hospice services.

  �	
       HCFA’S Medicare and Coordinated Care Plans contains information on
       managed health care plans (health maintenance organizations and competitive
       medical plans) that contract with HCFA to provide health care for Medicare
       beneficiaries,

  �	
       HCFA’S Medicare Savings for Qual~ied Beneficiaries explains how Medicare can
       pay additional medical costs for certain low-income Medicare beneficiaries.

Beneficiary participation in the survey was voluntary. A total of 1002 beneficiaries
returned completed questionnaires, for a response rate of 78 percent. Given the size
of our sample and response rate, results of our survey are protectable to the universe
of 36 million beneficiaries. Appendix A shows beneficiary responses.

Comparison   to Previous Surveys

We compared beneficiary responses to the 1993 survey to beneficiary responses to the
1994 survey on questions about the Medicare Handbook. We also compared
beneficiary responses on two other publications--the nursing home and Medigap
booklets.

The two booklets on selecting nursing homes and Medigap insurance we previously
reported on in 1993. We could not determine if the difference in responses in 1993
and 1994 were statistically significant because we worded the question about
beneficiary awareness differently those two years.

In 1994, we asked beneficiaries about their awareness of the health insurance and
nursing home guides in a list of seven publications. Only those beneficiaries who were
aware of one or more of the seven publications should have answered the question.
Therefore, we calculated our percentages of beneficiary awareness and unawareness of
the guides using the number of beneficiaries who responded to the survey (1002). We
interpreted each non-response to the question as meaning that the beneficiary was not
aware of any of the seven publications listed in the question. That interpretation is
consistent with the instructions we gave in the questionnaire.

In 1993, we asked about awareness of the health insurance and nursing home guides
in two separate questions. All beneficiaries responding to the survey should have
answered the questions to say they either were aware of the booklets or they were not
aware. However, some beneficiaries skipped the questions. Since we did not know
whether or not they were aware of the booklets if they skipped the question, we
calculated the percentages aware and unaware in our report Use of Nursing Home and


                                             3
Medigap Guides (OEI-04-00481) using the number of people who answered the
question.  In order to compare 1993 responses to 1994 responses, we recalculated
percentages for 1993 using the number of beneficiaries responding to the survey
(1053).

See appendix A for beneficiary responses to the 1993 survey, and appendix B for
beneficial responses to the 1994 survey.


We conducted this inspection in accordance with the Quality Standards for Inspechons
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                   FINDINGS


MOST BENEFICIARIES           WERE AWARE OF MEDICARE                 lL4.NDBOOK

Three-fourths of the beneficiaries surveyed said they knew about the Medicare
Handbook, Beneficiaries responded virtually the same in both the 1993 and 1994
surveys.

A little over 40 percent of the beneficiaries surveyed had used the handbook in the
previous year. Ofthebeneficiaries    whohadused      the handbook:

  �
       over 90 percent thought the handbook was helpful,

  �
       over 90 percent thought the print was large enough to read,

  �
       over 85 percent thought the handbook contained adequate information, and

   �
       over 80 percent thought the wording was easy to understand.

In both the 1993 and 1994 surveys, half of the beneficiaries surveyed said they would
refer to their Medicare Handbook  to get information about their Medicare benefits.

AWARENESS        OF THE MEDIGAP GUIDE INCREASED                     SINCE 1993

Table 1 shows that beneficiary awareness of the Guide to Health Insurance for People
wi~h Medicare increased 11 percent between 1993 and 1994.


                                           TABLE 1
                          AWARENESS         OF MEDIGAP GUIDE


                PUBLICATION                                 1993                   1994


 Guide to Health Insurance for People

 with Medicare                                             13705                  24%



Although we could not determine what caused the increased awareness of the

Medigap guide, we recognize that HCFA is developing strategies to make beneficiaries

more cognizant of the publication. For example, staff from HCFA and the Social



   50ur report Use of Nursing Home and Medigap Guides (OEI-04-92-00481) shows 14 percent because
we calculated the percentage differently, as explained in the Methodology section of this report.


                                               5
Security Administration have been meeting quarterly to improve coordination and the
dissemination of information to beneficiaries.

AWARENESS OF THE NURSING HOME GUIDE WAS ABOUT THE SAME IN
1993 AND 1994

Table 2 shows that less than 10 percent of beneficiaries surveyed knew about the
Guide to Choosing a Nursing Home in both 1993 and 1994.


                                       TABLE 2
                     AWARENESS       OF NURSING HOME GUIDE


                PUBLICATION                          1993                 1994
f                                                                                       1

    Guide to Choosing a Nursing Home                  99Z0                 8%




FEW BENEFICIARIES          WERE AWARE OF OTHER HCFA PUBLICATIONS

Table 3 illustrates that the percent of beneficiaries aware of five HCFA publications
other than the Medigap and nursing home guides ranged from 4 to 14 percent of the
1002 beneficiaries responding to our survey.


                                        TABLE 3
                       AWARENESS       OF HCFA PUBLICATIONS


                          PUBLICATION                               BENEFICIARIES
                                                                        AWARE

    Medicare and Other Health Benefits                                    1470
    Medicare Coverage for Second Surgical Opinions                        9%
    Medicare Hospice Benefits                                             9V0
IIMedicare and Coordinated      Care Plans                      I         6%            II
    Medicare Savings for Qualified Beneficiaries                          4%

 We realize that awareness of these publications may depend on a beneficiary’s needs.
 For example, it is understandable that a beneficial who has not needed surge~ may
 not be aware of the publication on second surgical opinions.



                                              6

                    RECOMMENDATIONS


HCFA publications provide information that Medicare beneficiaries and their families
may use to make informed health care decisions. However, they cannot benefit from
the guidance if they do not know the information is available.

Publications such as the Medicare Handbook and the Guide to Health Insurance for
People with Medicare have broader applicability to beneficiaries. We noted that the
rate of awareness for these publications is higher than for other publications. We also
realize that awareness of some of the other publications, such as the pamphlet on
hospice benefits, may depend on a beneficiary’s needs. Further, those publications
that beneficiaries are less aware of are referenced in HCFA’S Medicare Handbook
which most beneficiaries do know about.

As our 1993 report on the nursing home and Medigap guides acknowledged, HCFA is
working with the Social Security Administration and the Assistant Secretary for Public
Affairs to make HCFA information more accessible to beneficiaries. That effort
seems to be working for the Medigap booklet we studied in 1993. HCFA’S current
work with the National Association of Insurance Commissioners (NAIC) should also
increase awareness of the Medigap guide. HCFA and NAIC are developing disclosure
statements which are provided to beneficiaries who purchase Medigap insurance. The
statements refer potential Medigap buyers to the Guide to Health Insurance for People
with Medicare.

We recommend that HCFA continue their current efforts, as well as experiment with
new methods, to develop a more effective strategy to increase beneficiary awareness of
their publications.

Some new methods that HCFA might consider for experimentation         are listed below.

   �	
        HCFA could distribute publications, or a listing of publications through offices
        of physicians and other health care providers.

   �	
        HCFA carriers could include a listing of HCFA publications with the
        Explanation of Medicare Benefits sent to beneficiaries after claims for Part B
        services have been processed.

   �
        Post Offices could display a listing of HCFA publications.




                                             7

                  AGENCY               COMMENTS


The HCFA Administrator commented on our draft report, and concurred with our
findings. He reported that HCFA has several initiatives underway designed to educate
Medicare beneficiaries andproviders about Medicare's home health coverage. For
example, HCFA is developing a new pamphlet to be distributed to organizations and
health care providers who serve beneficiaries. The Administrator reported HCFA is
also working to improve the readability and distribution of existing publications.

Appendix C shows the full text of comments provided by HCFA.




                                          8

    APPENDIX        A




RESPONSES TO THE 1993 SURVEY
 OF MEDICARE BENEFICIARIES




             A-1
       RESPONSES TO 1993 SURVEY OF MEDICARE               BENEFICIAR~
                          (1053 Respondents)


Question                               Responses          Percentage


1.	   The following are some places people might go to get answers if they have
      questions about what Medicare pays for. Wherewouldyougo to get
      information about what Medicare pays for?

       (Check all that apply)

       (N = 1025- Number Responding to Question)


       Your doctor’s office             495                 48
       Friend or relative               103                 10
       AARP or other
        membership organization         200                 20
       Insurance company that
        process your Medicare claims    324                 32
       Social Security office           465                 45
       Local senior citizen’s group      83                  8
       Insurance salesperson             17                  2
       Medicare Handbook                552                 54
       Other                             40                  4
        Not Answering: 28

2.     How many times in the past year have you used your Medicare Handbook?

       (Check ~     answer.)

       1 to3 times                      368                 36
       More than 3 times                 57                  6
       I have never used the
        Medicare Handbook               345                 34
       I do not know what the
         Medicare Handbook is            27                  3
       I do not recall receiving a
         Medicare Handbook              213                 21
       Not Answering: 79




                                        A-2

Question                                 Responses      Percentage


3.	   Do you think the Medicare Handbook       is:
      (Check ~    answer.)

       (N = 425- Number Who Had Used Handbook)

       Very Helpful                      113              27
       Generally Helpful                 272              66
       Generally Not Helpful              19               5
       Not Helpful                         7               2
       Not Answering: 14



4.	    Thinking about the Medieare Handbook you have reeeived, would you say
       that...

       (N = 425- Number Who Had Used Handbook)

       a.    The wording is easy to understand?

             Yes                         314              80
             No                           78              20
             Not Answering:    33

       b.    The lettering is large enough to read?

              Yes                        345              94
              No                          23               6
              Not Answering:   57

       c.     It covers enough information?

              Yes                        284              85
              No                          51              15
              Not Answering:   90




                                         A-3

Question                                Responses          Percentage


5.	   Medicare publishes a booklet entitled “Guide to Health Lwurance for People
      with Medicare.” It discusses things you should look for in choosing Medigap
      insurance to supplement your Medieare coverage. It is available at yOUIStia.1
      Security office.

       Before today, were you aware Medieare had a booklet to help you
       choose other health insurance?

       Yes                              139                  14
       No                               875                  86
        Not Answering:   39



6.	   Medicare also has a booklet entitled “Guide to Choosing a Niming
      Home.” It discusses things to look for in selecting a nursing home, and is
      available from several offices, including your Social Security office.

       Before today, were you aware Medicare had information on choosing a
       nursing home?

       Yes                                93                  9
       No                                917                 91
        Not Answering:   43




                                        A-4

    APPENDIX         B




RESPONSES TO THE 1994 SURVEY
 OF MEDICARE BENEFICIARIES




            B-1
       RESPONSES TO 1994 SURVEY OF MEDICARE               BENEFIC~
                          (1002 Respondents)



Question                                 Responses        Percentage


1.	   The following are some places people might go to get answers if they have
      questions about what Medicare pays for. Where would you go to get
      information about what Medicare pays for?

       (Check all that apply.)

       (N = 973- Number Responding to Question)

       Your doctor’s office              486                50
       Friend or relative                 67                 7
       AARP or other
        membership organization          135                14
       Insurance company that
        processes your Medicare claims   411                42
       Social Security office            337                35
       Local senior citizens’ group       58                 6
       Insurance salesperson              24                 2
       Medicare Handbook                 518                53
       Medicare Peer Review
        Organization (PRO)               107                11
       Other                              26                 3
       Not Answering: 29


2.     How many times in the past year have you used your Medicare Handbook?
       (Check ~  answer.)

       1 to 3 times                      331                 36
       More than 3 times                  77                  8
       I have never used the
         Medicare Handbook               297                 32
       I do not know what the
         Medicare Handbook is             27                 3
       I do not recall receiving a
         Medicare Handbook                191                21
       Not Answering: 79




                                         B-2

Question                                 Responses                 Percentage



3.	   Do you think the Medicare Handbook        is:
      (Check ~    answer.)

       (N=   408- Number Who Had Used Handbook)

       Very Helpful
                     123                         31
       Generally Helpful
                249                         64
       Generally Not Helpful
             14                          4
       Not Helpful
                        5                          1
       Not Answering: 17




4.	    Thinking about the Medicare Handbook           you have received, would you say that...

       (N = 408- Number Who Had Used Handbook)

       a.     The wording is easy to understand?

              Yes                         312                        84
              No                           58                        16
              Not Answering:    38

       b.     The lettering is large enough to read?

              Yes                         326                        93
              No                           25                         7
              Not Answering:    57

       c.     It covers enough information?

              Yes                         290                        87
              No                           42                        13
              Not Answering:    76




                                          B-3

Question                                 Responses           Percentage



5.    Listed below are Medicare booldets that you can obtain free. Before
      @&, were you aware that you could obtain the following free
      publications from Medicare?

       (Please check the booklets you were aware of before todav.)

       Guide to Health Insurance
        for People with Medicare         237                  24

       Guide 10 Choosing a
       Nursing Home                       78                    8

      Medicare: Coverage for
       Second Surgical Opinion            94                    9

       Medicare: Hospice Benefits         90                    9

       Medicare and Coordinated
        Care Plans                        59                    6

       Medicare and Other
       Health Benefits                   141                   14

       Medicare: Savings for Qualified
        Beneficiaries                     42                    4


       Number Who Checked One or More Publications:       405

       Number Who Did Not Check Any Publications:      597




                                         B-4

APPENDIX     C




 HCFA COMMENTS




       c-1
     +’
          , ,,..l
                     <,,$
                    .1,
                                                                                                     Health    Care


                    A
 .                              DEPARTMENT 01- HEALTH & HUMAN SERVICES                               Financing    Administration
*’
:<


                                                                                             “.     Memorandum

                          DATE              APR28 K195

                          FROM	         Bruce C. Wade
                                        Administrator %-
                          SUBJECT	      Office of Inspector General Draft Report:   “Beneficiary Awareness of
                                        HCFA Publications,” (OEI-04-93-O0141)

                          TO	           June Gibbs Brown
                                        Inspector General


                          We reviewed the subject draft report which examined beneficia~ awareness of booklets
                          the Health Care Financing Administration publishes to assist beneficiaries with health
                          care decisions. Our comments are attached for your consideration.

                          Thank you for the opportunity to review and comment on this report.      Please advise us if
                          you would like to discuss our position on the report’s recommendation.

                          Attachment




                            IG         _

                            SAIG
                                                                        -,.
                            PDIG
                                                                         7)
                            ~lG-AS

                            DIG-E1

                            DIG-01

                            AIGCFAA
                                                                                                                  -u
                                                                                                                  w
                            MG-MP
                            C)	 GCIIG -..__+
                                                                     Cn

                            EXSEC

                            DATE SENT%

            Comments of the Health Care Financing Administration (HCFA]

                 on Office of Inspector General [OIG) Draft Report:

                   “Beneficiary Awareness of HCFA Publications,”

                                  (OEI-04-93-00141)



OIG Recommendation

HCFA should continue their current efforts, as well as experiment with new methods, to

develop a more effective strategy to increase beneficiary awareness of their publications.


Some new methods that HCFA might consider for experimentation         are listed below.


       o	     HCFA could distribute publications, or a listing of publications, through
              offices of physicians and other health care providers.

       o	     HCFA carriers could include a listing of HCFA publications with the
              Explanation of Medicare Benefits sent to beneficiaries after claims for
              Part B services have been processed.

       o      Post offices could display a listing of HCFA publications.

HCFA Response

We concur. As mentioned in the report, HCFA is engaged with internal and external

partners to increase the awareness and distribution of its publications. We have several

initiatives under way for fiscal year 1995 designed to educate Medicare beneficiaries and

providers about what Medicare’s home health benefit covers and pays for. These

initiatives employ multimedia and multiuser approaches to guarantee maximum use and

benefit.


First, a pamphlet has been developed which explains Medicare home health coverage,

eligibility, fraud, and quality concerns. It is currently being reviewed by HCFA

component staff, several beneficiary and home health organizations, and Medicare

beneficiaries. We anticipate having a final revised version of the pamphlet complete by

July/August 1995. The pamphlet will be distributed to groups and organizations that

provide counseling and assistance services to beneficiaries such as the Information

Counseling and Assistance (ICA) Program State grantees, the Retired Seniors Volunteer

Program, and others. It will also be distributed to hospitals to be shared with the staff

(hospital discharge planners and social workers) who assist beneficiaries with their

posthospital health care needs. We also intend to distribute copies of the pamphlet to

professional provider organizations such as the American Medical Association and

American Nurses Association. We recognize that doctors need to understand this benefit

because many beneficiaries consult with their doctors about Medicare coverage. Hence,

we will encourage these organizations to put the pamphlet in their newsletters-and other

correspondence that goes to their members.

